HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
Riverside County, California, from October 1, 1998, Through March 31, 2006,"
(A-09-07-00049)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Undistributable Child Support Collections in Riverside County, California,
from October 1, 1998, Through March 31, 2006," (A-09-07-00049)
June 5, 2008
Complete
Text of Report is available in PDF format (913 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
For the period October 1, 1998, through March 31, 2006,
California did not, as required, recognize or report program income totaling
$245,000 ($162,000 Federal share) for Riverside Countys undistributable child
support collections and interest earned on child support collections.
Undistributable collections result when a State receives a child support payment
but cannot identify or locate the custodial parent or return the funds to the
noncustodial parent.  The Office of Child Support Enforcement, within HHSs
Administration for Children and Families, requires States to offset Child
Support Enforcement program costs, for which they receive Federal matching
funds, by recognizing and reporting undistributable collections and interest
earned on collections as program income.
We recommended that the State (1) report program income for undistributable
collections that the county already recognized as abandoned, (2) monitor the
countys progress in resolving the status of unclaimed child support collections
and report as program income those collections recognized as abandoned, (3)
ensure that the county uses the correct dates to age undistributed collections,
and (4) report program income for interest earned on child support collections.
The State concurred with the findings and described how it was addressing
the recommendations.